WAIVER

r

-

AUG 0 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Michael S. Barth

20-100
Bernards Township Planning Board, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Islamic Society of Basking Ridge, Inc.

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

August 5, 2020

(Type or print) Name Robert L. Toll
0 Mr. 0 Ms. 0 Mrs. 0 Miss
Firm

Hogan Lovells US LLP

Address

390 Madison Avenue

City & State
Phone

New York, NY

212-918-3807

Zip
Email

Robe

10017

anlovells.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER' COA*410 CP P TITIONER
202IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) 0
RECIPIENT(S) F A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SE It6/1Mbraft
CC: Michael S. Barth

